 Amtrak Office of Inspector General

   Fiscal Year 2011 Annual Audit,

   Inspection and Evaluation Plan




NATIONAL RAILROAD PASSENGER CORPORATION
      OFFICE OF INSPECTOR GENERAL
             10 G STREET, N.E.
          WASHINGTON, DC 20002
               A Message from the Inspector General
I am pleased to present the Fiscal Year 2011 Annual Audit, Inspection, and Evaluation Plan
for the Amtrak Office of Inspector General. This year promises to be another challenging
and demanding one as we attempt to address the many complex issues confronting Amtrak
in its daily effort to provide high quality passenger rail transportation to the nation. This
plan outlines the areas where we intend to undertake audit, evaluation, and inspection work
during this fiscal year, summarizes our most recent reports, and discusses our ongoing
projects. We focused on our core mission of conducting independent and objective audits,
inspections, and evaluations -- to promote economy, efficiency, and effectiveness in
Amtrak‟s programs and operations; and to prevent and detect fraud, waste, abuse, and
mismanagement.


Should you have any questions, please feel free to contact me, Tom Howard, the Deputy
Inspector General, David Warren, the Assistant Inspector General - Audit, or Calvin Evans,
the Assistant Inspector General – Inspections and Evaluations, at 202-906-4600.



Ted Alves
Inspector General
                           Amtrak’s Office of Inspector General Annual Audit,
                            Evaluation and Inspection Plan – Fiscal Year 2011


                                                       Table of Contents
                                                                                                                                Page


Introduction ...................................................................................................................... 1

Governance ....................................................................................................................... 1

Acquisition and Procurement ........................................................................................... 4

Information Technology ................................................................................................... 7

Train Operations and Business Management ................................................................... 9

Human Capital Management .......................................................................................... 11

American Recovery and Reinvestment Act of 2009 ...................................................... 13

OIG Mission and Contact Information ........................................................................... 16
                 Amtrak’s Office of Inspector General Annual Audit,

                   Evaluation and Inspection Plan – Fiscal Year 2011


Introduction
During FY 2011, we plan to focus our audit, evaluation, and inspection efforts on the
following areas:

       Governance
       Acquisition & Procurement
       Information Technology
       Train Operations & Business Management
       Human Capital Management, and the
       American Recovery and Reinvestment Act of 2009

We selected these areas because they are critical elements that support Amtrak‟s goals and
initiatives that are intended to secure and expand the Company‟s leadership position in the
increasingly competitive passenger rail industry. Our overall goal in addressing the areas
will be to identify specific recommendations to improve the economy, efficiency, and
effectiveness of Amtrak‟s programs and operations and to detect and prevent fraud, waste,
and abuse.

In each of the following sections, we provide a brief overview of:
       why the area is a critical element in supporting Amtrak‟s goals and initiatives;
       our recently issued reports;
       ongoing audits/evaluations/inspections we plan to complete during fiscal year 2011;
       and,
       potential audit/evaluation/inspection topics for fiscal year 2011.

As resources become available to initiate new audits and evaluations during FY 2011, we
will evaluate the topics in this plan against risk criteria such as dollar value, prior audit
coverage, vulnerability to fraud, waste and abuse, and OIG discretion/judgment. We will
also consider the topics in the context of interest by internal and external stakeholders,
public sensitivity, emerging issues, and other priorities.


Governance
Over the past 10 years, the subject of corporate governance and risk management has
received additional attention. Corporate governance is defined as a system of internal
control encompassing policies, processes, and people, which serves the needs of
shareholders and other stakeholders, by directing and controlling management activities
with good business savvy, objectivity, accountability, and integrity. We will focus on
identifying opportunities to improve Amtrak‟s governance policies and practices, with a
view toward reducing operational risk and optimizing the use of resources.


                                               1
Recently Issued Reports: (Governance)

       Final Report Number E-10-01, August 17, 2010 - Amtrak‟s Strategic Planning

       This evaluation compared Amtrak‟s 2009 strategic planning documents and
       planning process with best practices in strategic planning. As part of this
       evaluation we learned that there is no one right way to conduct strategic
       planning, but there are common elements among the various processes that drive
       effective strategic plans. We recommended that Amtrak develop a strategic plan
       utilizing a strategic planning process that incorporates the key elements of
       effective strategic planning. Amtrak management agreed with this
       recommendation and committed to preparing a timeline for the development of
       a strategic plan.

       Final Report 407-2003, September 24, 2010 - Burlington Northern Santa Fe
       (BNSF) On-Time Performance Incentives: Inaccurate Invoices and Lack of
       Amtrak Management Review Lead to Overpayments

       We reported that Amtrak overpaid BNSF by over $1 million for on-time
       performance incentives during the seven month period covered by our audit.
       This occurred because Amtrak did not verify the accuracy of BNSF‟s monthly
       billings prior to approving them for payment. This practice represents a long-
       standing and significant internal control weakness in Amtrak‟s invoice review
       process. Over the last 10 years, we identified over $50 million in overpayments
       for on-time performance incentives. Amtrak management is seeking recovery
       of overpayments and has stated that it plans to add resources, enhance controls,
       and implement a new billing review process for on time performance incentive
       payments.

Ongoing Audits: (Governance)

       Inventory Accounting Practices – The audit addressed whether FY 2010
       inventory purchases were recorded in a manner consistent with Amtrak‟s
       accounting policies. This work supported the audit of Amtrak‟s consolidated
       financial statements.

       We have a series of internal control audits underway reviewing Amtrak‟s
       payments to railroads‟ including Burlington Northern Santa Fe Railroad, the
       Union Pacific Railroad Company, Southern Pacific Transportation Company,
       and the Metro-North Commuter Railroad for on-time performance incentives.
       The objectives are to (1) determine whether the railroads complied with the
       operating agreements in calculating on-time performance incentives invoiced to
       Amtrak, and (2) evaluate the adequacy of Amtrak controls and processes for
       reviewing on-time performance incentive invoices.



                                         2
       In another series of internal control audits we are reviewing monthly invoices
       (excluding on-time performance) from railroads including CSX Transportation,
       Inc., Southern Pacific Transportation Company, Union Pacific Railroad
       Company, and the Burlington Northern Santa Fe Railway Company. Our
       objectives are: (1) determining whether the railroad complied with the operating
       agreements when presenting monthly invoices to Amtrak for the use of tracks
       and services (excluding on-time performance), and (2) evaluating the adequacy
       of Amtrak controls and processes for reviewing monthly invoices.

FY 2011 Potential Audit Topics: (Governance)

   Our governance audit focus will be to enhance the stewardship of company
   resources by evaluating senior leadership‟s processes, policies, and activities to
   identify areas where corporate governance can be improved. Our initial focus will
   be on determining the adequacy of Amtrak‟s organization-wide risk management
   framework and the adequacy of risk management processes within selected major
   business activities. Other issues we plan to review include Amtrak‟s policies and
   procedures in establishing the:

       Control environment – sets the tone of an organization, influencing the control
       consciousness of its people. Control environment factors include the integrity,
       ethical values, management‟s operating style, delegation of authority systems, as
       well as processes for managing and developing people in the organization.

       Risk assessments – A precondition of risk assessment is establishment of
       objectives and thus risk assessment is the identification and analysis of relevant
       risks to the achievement of assigned objectives. Risk assessment is a
       prerequisite for determining how the risks should be managed.

       Control activities – control activities are the policies and procedures that help
       ensure management directives are carried out. Control activities include a range
       of activities as diverse as approvals, authorizations, verifications,
       reconciliations, reviews of operating performance, security of assets and
       segregation of duties.

       Information and communication infrastructure – information systems play a key
       role in internal control systems as they produce reports, including operational,
       financial and compliance-related information, that make it possible to run and
       control the business, and

       Monitoring activities – internal controls need to be monitored – a process that
       assesses the quality of the system‟s performance over time. Internal control
       deficiencies detected through these monitoring activities should be reported
       upstream and corrective actions should be taken to ensure continuous
       improvement of the system. An emphasis area for the OIG is increased



                                          3
           monitoring and oversight of the audit of Amtrak‟s financial statement being
           performed by an independent public accountant.


Acquisition and Procurement
During fiscal years 2011-2015, Amtrak plans to spend $5.9 billion on capital projects. The
majority of capital funding will be spent on projects designed to bring its infrastructure and
equipment into a state of good repair. For example, in February 2010, Amtrak released a
Fleet Strategy outlining a multi-billion dollar plan to replace its aging fleet and to provide
additional fleet and equipment to handle the projected growth in demand through 2040.
Our work will focus on the effective and efficient use of resources by identifying systemic
weaknesses as well as individual contract and project implementation weaknesses.

   Recently Issued Reports: (Acquisition and Procurement)

           Final Audit Report E-09-04 – July 21, 2009 - Lessons Learned: An Analysis of
           the Acela and Surfliner Programs

           Amtrak is currently planning a number of rolling stock equipment
           procurements. To insure current Amtrak decision-makers are knowledgeable of
           “lessons learned” from past Amtrak procurements, the OIG reviewed two of
           Amtrak‟s major equipment procurement programs during the last 15 years
           (Acela and Surfliner) and documented the “lessons learned” from these
           programs. To accomplish this, the OIG interviewed over a dozen of the key
           individuals involved in these procurements. The individuals interviewed had
           many recommendations from their experiences with these procurements. The
           OIG report discussed both programs and documented 20 of these
           recommendations to help guide Amtrak management in any future major
           equipment procurement. These recommendations included avoiding
           technologies that had not been proven to work together, ensuring there is a clear
           understanding of the performance requirements and features before entering into
           the contract, arranging financing separate from the manufacturing contract,
           dealing with one company as the lead rather than dealing with a consortium, and
           assigning risks to the party that is in best position to control them. Management
           agreed with the recommendations and has already incorporated some of them
           into current procurement actions.

           Final Audit Report 219-2010 – January 12, 2011 - Amtrak Should Negotiate a
           Price Adjustment to a Major Acquisition Contract

           We identified more than $16.6 million in costs for which Amtrak should seek a
           price adjustment. Although we found no basis to question the vast majority of
           costs in the contractor‟s price proposal, we determined that the contractor did
           not reasonably apply its estimating system to several cost categories where
           Amtrak could realize cost reductions through negotiations with the contractor.
           Specifically, the contractor duplicated profit, misapplied labor and training rates,


                                              4
overstated general and administrative costs, and included warranty and risk
costs that we found to be unreasonable. Amtrak agreed with our
recommendation to use the information we developed as a basis to negotiate a
price adjustment to this contract and to support future negotiations regarding
contract options and modifications.

Final Audit Report 504-2009 –December 22, 2010 - Incurred Cost Audit:
Amtrak‟s Track Replacement and Related Improvements Contracts Audit
Identified $351,205 of Questioned and Unsupported Costs –

We identified $221,925 in net questioned costs and $129,280 in unsupported
costs for a total of $351,205 that could potentially be recovered. The questioned
costs were primarily the result of overstated labor and labor add-ons, such as
benefits; and disallowed district shop expenses, equipment, safety awards, and
certain subcontractor costs that were not in accordance with the contract or
specifically allowed by the contract. We found that the Contractor did not
provide adequate support for business managers‟ labor and labor add-ons, and
for related equipment costs invoiced to Amtrak. We also found that Amtrak‟s
Department of Procurement and Materials Management (Procurement) did not
ensure that all costs invoiced by the Contractor were in compliance with
contract provisions. Amtrak‟s Procurement office and project manager did not
ensure that the Contractor‟s invoices were adequately and appropriately
supported. We recommended that Amtrak take steps to recover overpayments
and remind staff to ensure that costs are adequately supported before paying
vendor invoices.

Amtrak disagreed with most of the questioned and unsupported costs, and with
the recommendation to remind staff to ensure costs are supported before paying
vendor invoices. Amtrak‟s response did not contain sufficient facts or rationale
to rebut the validity of the findings. Amtrak‟s response indicates a lack of
appropriate attention to management controls over payments. Given this lack of
attention, we addressed our final report and recommendations to a higher level
Amtrak official. We recommended that Amtrak‟s Chief Financial Officer direct
staff to initiate negotiations with the Contractor to recover the questioned and
unsupported costs we identified, and to remind staff to ensure that costs are
adequately supported before paying vendor invoices.

Final Audit Report 503-2009 – December 13, 2010 – Incurred Cost Audit:
Amtrak‟s Design/Build Improvements Contract

We identified $17,694 in net questioned costs and $908,582 in unsupported
costs for a total $926,276 that could potentially be recovered. The questioned
costs were primarily the result of the Contractor‟s billing of relocation,
insurance, and General and Administration costs that were not in the accordance
with the contract or specifically allowed by the contract. We found that the
Contractor did not provide adequate support for salaried staff costs and salaried


                                  5
staff vehicle costs invoiced to Amtrak, that Amtrak‟s Department of
Procurement and Materials Management (Procurement) did not ensure that all
costs invoiced by the Contractor were in compliance with contract provisions,
and that Amtrak‟s Procurement office and project manager did not ensure that
the Contractor‟s invoices were adequately and appropriately supported. We
recommended that Amtrak take steps to recover overpayments and remind staff to
ensure that costs are adequately supported before paying vendor invoices.

Amtrak disagreed with most of the questioned and unsupported costs, and with
the recommendation to remind staff to ensure costs are supported before paying
vendor invoices. Amtrak‟s response did not contain sufficient facts or rationale
to rebut the validity of the findings. Amtrak‟s response indicates a lack of
appropriate attention to management controls over payments. Given this lack of
attention, we addressed our final report and recommendations to a higher level
Amtrak official. We recommended that Amtrak‟s Chief Financial Officer direct
staff to initiate negotiations with the Contractor to recover the questioned and
unsupported costs, and to remind staff to ensure that costs are adequately
supported before paying vendor invoices. We further recommend that the Chief
Financial Officer review the adequacy of internal controls over the vendor
invoice process, including the control environment, and implement
improvements as needed.

Final Audit Report 508-2009, December 2, 2010 - South End Track and Related
Improvements

Our review of costs billed by Kiewit Pacific Co (Kiewit) under Contracts C069-
93228 and C069-06834 identified issues pertaining to questionable contract
language and an opportunity to improve contract negotiation practices. The
questionable contract language states in the event that certain funds are not paid
to the Contractor within 90 calendar days following proper invoicing by the
Contractor and receipt by Amtrak, both parties “shall agree to seek a mutually
acceptable means of compensating the Contractor for the „time value of
money.‟” One of the mutually acceptable means stated in the contracts allows
the Contractor to be paid interest on funds held in anticipation of invoice audit
findings. The OIG was not advised by Procurement about the subject language,
before its inclusion in the contracts.

We recommended that Amtrak, (1) as a standard practice, exclude any contract
language that allows paying interest payable to a Contractor on funds held and,
if such language is included, formally justify its inclusion that it is in Amtrak‟s
best interest and does not impair auditor independence; (2) review all existing
contracts for similar language and ensure that Amtrak does not agree to the
payment of interest to the Contractor on those funds; and (3) avoid contract
language that could impair the auditor‟s responsibilities. Amtrak agreed with
the recommendations.




                                   6
   Ongoing Audits: (Acquisition and Procurement)

           Contractor Food and Beverage Rebate Reimbursement Reconciliation – Our
           objective is to determine the accuracy of the reported gross rebates and
           subsequent commission fee paid to a sub-contractor under a food and beverage
           contract.

           Review of Costs Claimed Under an Amtrak Settlement Agreement – The audit
           objective is to determine the accuracy and acceptability of cost data submitted in
           a $3.6 million Settlement Agreement for the construction of a temporary utility
           bridge.

           Review of a $2 million contract modification under Amtrak Contract
           C-082-83501 – Our objectives are to determine the accuracy and acceptability
           of the cost data proposed by the contractor. We are reviewing cost calculations
           to determine whether any of the additional indirect overhead costs in the
           modification have been included in the original contract cost or previous
           contract modifications. We are also determining whether Amtrak‟s procurement
           office adhered to the procedures outlined in the Amtrak Procurement Manual
           with respect to the contract and subsequent 23 contract modifications.

   FY 2011 Potential Audit Topics: (Acquisition and Procurement)

           During fiscal year 2011, we plan to undertake work to review the efficiency and
           effectiveness of Amtrak‟s acquisition and procurement processes. We will also
           do selected pre and post award reviews of major contracts with a goal of
           identifying cost savings. We will also do selected reviews of major ongoing
           contracts to determine whether costs are being properly controlled, desired
           outcomes are being achieved, and appropriate oversight is occurring.

           We also plan to conduct performance audits of Amtrak‟s acquisition and
           procurement processes, practices, and funds use. We will identify systemic risks
           to Amtrak acquisitions and procurements and make recommendations for
           organizational improvement.



Information Technology
Passenger railroad businesses are labor and capital intensive. These businesses increasingly
rely on modern information technology (IT) to improve labor and asset productivity and
deliver safe and reliable customer service. Many of Amtrak‟s existing information systems
and IT infrastructure in the areas of reservation and ticketing, finance, supply chain, and
operations are outdated, inefficient, and increasingly prone to failure. The increasing risk
of failure in business critical systems must be addressed to ensure the resiliency and
continuity of operations. At the same time, addressing these issues will be costly. Our


                                             7
work will focus on improving the economy, efficiency, and effectiveness of Amtrak‟s IT
project implementation.

   Recently Issued Reports: (Information Technology)

          Final Report No. 105-2010, January 14, 2011 - Strategic Asset Management
          (SAM) Program Controls Design Is Generally Sound, But Improvements Can
          Be Made

          Amtrak‟s SAM program is estimated to cost as much as $380 million. The goal
          is to transform key business operations such as finance, logistics, and asset
          management. SAM will replace or enhance many manual and automated
          systems. The design of the automated controls to mitigate financial risks in the
          first SAM segment (R1a) to be implemented is generally sound. However, we
          found gaps in the design of the controls that do not fully mitigate the financial
          and operational risks. These gaps put Amtrak at risk of not fully realizing the
          potential benefits from SAM. In particular, a lack of adequate controls can lead
          to inaccurate financial reporting, vulnerability to fraud, and inefficient business
          operations. We recommended that Amtrak: 1) complete certain automated
          control design tasks before the April 2011 R1a implementation, and 2) expand
          the scope of the control design process to include controls that fully address
          financial and operational risks in all affected business areas. Management
          agreed with all our recommendations and has assigned responsibilities to
          appropriate individuals to take timely actions to address our recommendations.

   Ongoing Audits: (Information Technology)

          SAM Release 1a Program Governance and Management – Our objectives are to
          review the resiliency of strategic plan and implementation approach of the SAM
          program, and review the effectiveness of SAM program management processes.

          Wireless Network Security – The audit objectives are to review the adequacy of
          Amtrak‟s wireless network policy for maintaining the confidentiality, integrity,
          and availability of corporate information, and to review Amtrak‟s wireless
          networks and devices to ensure that proper security controls are effectively
          implemented and are compliant with corporate policies and industry best
          practices.

          Mainframe Security – Our objectives are to review the effectiveness of IBM‟s
          Resource Access Control Facility support, and the adequacy and effectiveness
          of Amtrak's Resource Access Control Facility mainframe security control design
          and implementation.




                                             8
   FY 2011 Potential Audit Topics: (Information Technology)

           Information Technology Infrastructure Improvement – This initiative focuses
           on upgrading Amtrak‟s Information Technology infrastructure to improve
           service levels and lower current costs. Under the new outsourcing contracts,
           IBM is responsible for data center operations and management of desk top
           computers while AT&T is responsible for data and voice networks. Amtrak is
           also moving its current data center to two new locations over the next several
           months.

           Strategic Asset Management (SAM) – This will be a follow on to our prior
           work. SAM is a multiyear program to transform and integrate key operations,
           financial, supply chain, and human resource processes. It is expected to help
           Amtrak meet managerial accounting requirements mandated by PRIIA and
           replace legacy financial, procurement, materials management and operational
           systems.

           eTicketing and Next Generation Reservation – Amtrak‟s current reservation
           and ticketing system are critical for sales booking, ticketing, customer service,
           and train operations. eTicketing is a major program that aims to replace current
           paper based ticketing processes with an airline style electronic ticketing system.
           The estimated cost of the eTicketing program is $41 million. Amtrak is also
           developing the next generation reservation system at an estimated cost of $86
           million, to improve resiliency, flexibility, and agility to respond to the demands
           of today‟s travel marketplace.

           Amtrak Information Management – The objective of this program is to make
           critical business information reliable and easily accessible to Amtrak‟s
           managers and executives. Amtrak will integrate information form various
           internal and external sources and will include sophisticated capabilities such as
           business intelligence, document management, and train communications.



Train Operations and Business Management
Amtrak operates over 300 daily trains on over 21,000 miles of rails. It serves 528 stations
in 46 states, 3 Canadian provinces and the District of Columbia. In 2010, Amtrak moved
more than 28 million intercity passengers. In addition to evaluating Amtrak‟s compliance
with Laws and Federal Regulations, we are continually looking for opportunities for
Amtrak to improve the effectiveness and efficiency of its train operations and business
management.




                                              9
Recently Issued Reports:

       Final Report Number E-09-05 – September 28, 2009 - Amtrak‟s Infrastructure
       Maintenance Program

       This report evaluated the efficiency and effectiveness of Amtrak‟s right-of-way
       (ROW) maintenance programs. To measure the relative efficiency and
       effectiveness of Amtrak‟s Infrastructure Maintenance program, we
       benchmarked Amtrak‟s performance metrics to those of comparable European
       railroads. The benchmarking process showed that Amtrak has an opportunity to
       reduce its long-term infrastructure capital and operating maintenance costs by
       $50 million to $150 million per year by improving the overall efficiency and
       effectiveness of its infrastructure maintenance program to the level of
       comparable European railroads. We identified numerous maintenance practices
       and technologies that Amtrak may be able to adopt to improve the efficiency
       and effectiveness of its infrastructure maintenance program. This report made
       16 recommendations. The recommendations take into consideration that
       Amtrak is not totally in control of all of the factors impacting its infrastructure
       maintenance costs and that Amtrak must enlist the support of outside agencies to
       accomplish several of the recommended actions. Management agreed with all
       of the recommendations.

Ongoing Audits: (Train Operations and Business Management)

       Amtrak Strategic Fleet Planning – In February 2010, Amtrak published a Fleet
       Strategy outlining the need to spend $23 billion over the next 30 years to replace
       aging equipment and to provide the fleet necessary to meet the projected future
       ridership demands. The objective of this evaluation is to assess whether the
       critical data and assumptions that have a material impact on the equipment and
       financial resource estimates contained in the plan are reasonable and valid.

       ADA Compliance – Our audit objective is to assess whether the ADA program
       is effectively managed by Amtrak to overcome barriers and mitigate risk.

       Mechanical Maintenance Operations Follow-up Evaluation – In a September
       2005 report (E-05-04) on Amtrak‟s Mechanical Maintenance Operations, we
       made 34 recommendations to improve the effectiveness and efficiency of
       Amtrak‟s mechanical maintenance program. One of our major
       recommendations was that Amtrak adopt a more modern maintenance
       philosophy based on Reliability Centered Maintenance (RCM). Since then,
       there has been considerable progress made in adopting RCM and implementing
       our other recommendations. Our ongoing follow-up evaluation is intended to
       document the progress that has been made over the last four years and to
       identify continued opportunities to improve the efficiency and effectiveness of
       Amtrak‟s mechanical maintenance operations.




                                         10
   FY 2011 Potential Audit Topics: (Train Operations and Business Management)

          During fiscal year 2011 we plan to start evaluations on Amtrak‟s
          implementation of Positive Train Control, as mandated by the Rail Safety
          Improvement Act of 2008, and Amtrak‟s crew scheduling process.

          We also plan on initiating an audit to assess Amtrak's implementation of the
          Passenger Rail Investment and Improvement Act of 2008 (PRIIA) by (1)
          determining the extent Amtrak has addressed individual PRIIA requirements,
          and (2) identifying the impact of Amtrak not fully addressing selected high-risk
          provisions.



Human Capital Management
The Amtrak OIG is one of only a handful of Federal OIGs that conduct oversight of
employee and retiree health care benefit programs. The need for OIG oversight is evident
given that Amtrak will spend approximately $320 million during FY 2011 to provide health
coverage to 48,000 employees, retirees, and family members. In addition, Amtrak‟s
healthcare cost has increased by 17.6 percent over FY 2009 and it is the fastest growing
component within Amtrak‟s budget.

   Recently Issued Reports: (Human Capital Management)

          Final Report Number E-09-06 - Issued October 26, 2009 - Training and
          Employee Development

          Training at Amtrak is managed and conducted in a largely decentralized
          manner. In 2008, records show that Amtrak‟s 19,000 employees received over
          670,000 hours of training (an average of about 35 hours of training per
          employee) we estimated to cost between $40 million and $45 million annually.
          Since training is decentralized and mainly driven by the individual department's
          requirements, it is not always consistently required or delivered throughout the
          corporation and appears to be more expensive than at other similarly sized
          companies. Part of the reason for the inconsistency between departments is that
          there is no individual or organization charged with overseeing all training at
          Amtrak. Furthermore, there is currently no corporate-wide training strategy or
          program to ensure that the efforts are aligned to meet the strategic needs of
          Amtrak in the future. In addition to the lack of a corporate-wide training
          program, there is also no integrated corporate-wide career development program
          for management employees. The report contained 27 recommendations to
          improve the effectiveness and efficiency of training and employee development.
          Amtrak agreed with all of the recommendations.




                                           11
      Final Report Number E-09-03 – May 15, 2009 - Human Capital Management

      Over a quarter of Amtrak‟s workforce will be eligible for retirement in less than
      five years. Investments in recruiting, developing, motivating, and retaining
      highly qualified employees with the skills that are critical to Amtrak‟s current
      and future needs are required for the company to maintain its position as the
      leader in intercity passenger rail within the United States. To ensure these
      investments are spent wisely and targeted in the correct areas, Amtrak needs a
      comprehensive, corporate-wide Human Capital strategy that is tied to the
      company‟s strategic plan and is supported by Amtrak‟s senior leadership and its
      Board of Directors. To help the company address this critical issue and to
      improve the efficiency and effectiveness of its Human Capital strategy, the
      report makes 24 recommendations – including the creation of a Human Capital
      officer position for the company to provide a single point of accountability for
      leading the strategic transformation of Human Capital management that must
      occur if Amtrak is to be successful in the future. Management agreed with all
      but one of the recommendations.

Ongoing Audits: (Human Capital Management)

      Operation RedBlock Follow-up Evaluation – RedBlock is a labor-developed,
      management-supported program to promote the awareness and education of
      drug and alcohol use in the workplace through union-led volunteer prevention
      committees. In a March 2008 report (#E-08-01) we made fourteen
      recommendations to improve RedBlock‟s operational and organizational
      efficiency and effectiveness in seven areas. The purpose of our ongoing follow-
      up review is to determine the progress made in implementing our previous
      recommendations and to assess the status of the seven areas discussed in our
      2008 report.

      Amtrak‟s Management of Background Investigations – The objectives are to
      review Amtrak‟s policies, processes, and practices used to conduct new
      employee background investigations. We are focusing on assessing Amtrak‟s
      oversight of contractors performing background investigations and whether
      contactor provided data timely supports the hiring process.

FY 2011 Potential Audit Topics: (Human Capital Management)

      Given ongoing work and competing priorities, we do not expect to begin
      additional audits in this area until FY 2012. Topics we are considering include
      reviewing Amtrak‟s management of employee absenteeism, overtime pay,
      whether modified work rules in labor agreements are resulting in productivity
      improvements, and additional work on the Company‟s drug and alcohol
      program.




                                       12
American Recovery and Reinvestment Act of 2009
The American Recovery and Reinvestment Act of 2009 (ARRA) included $5 million for
OIG oversight of the $1.3 billion in ARRA funding provided to Amtrak. Our efforts are
aimed at providing Congress with information on Amtrak‟s use of ARRA funds to include
projects completed with the funds and the associated benefit to Amtrak. In addition, our
work will review Amtrak‟s management of projects with a focus on improving project
economy, efficiency, and effectiveness.

   Recently Issued Reports: (American Recovery and Reinvestment Act of 2009)

          Inspector General Testimony before the United States Senate, Committee on
          Appropriations, Subcommittee on Transportation, Housing and Urban
          Development, and Related Agencies, April 29, 2010

          The Inspector General identified managing risks associated with projects funded
          through ARRA as a challenge in testimony before a Senate Subcommittee.
          ARRA included $1.3 billion in capital grants to help Amtrak improve its
          infrastructure, facilities, and security posture. The capital grant funding, provided
          through a grant agreement with the Federal Railroad Administration, requires
          Amtrak to complete all projects funded through ARRA no later than February 17,
          2011, and to continuously take actions to ensure projects are completed by that date.
          Amtrak is allowed to request a waiver for projects that cannot be completed by
          February 17, 2011, but must demonstrate that it has taken “extraordinary” measures
          to complete the project on time. This requirement to take extraordinary measures
          may have the unintended consequence of encouraging Amtrak to take actions that
          increase the risk of waste and inefficiency or even to take shortcuts that could
          increase the risk that the project will not perform as well as expected and will not
          provide the benefits expected.

          Because the grant agreement is driving these “extraordinary” measures rather
          than the Law, we recommended that Amtrak apply to the FRA to amend the
          grant provisions. The grant provisions should ensure a balance between
          spending taxpayer funds in a timely manner and achieving project objectives,
          without actions that could increase the potential for waste or inefficiencies. We
          also recommended that Amtrak apply to the FRA for a grant waiver in instances
          where reasonable measures have failed to bring the project within the grant
          deadline. Amtrak agreed with the recommendations.

          Final Report No. 912-2010, May 14, 2010 - Assessment of Risks Associated with
          Key Engineering Projects

          ARRA included $1.3 billion in capital grants to help Amtrak improve its
          infrastructure and security posture. The grant agreement with the Federal
          Railroad Administration required Amtrak to complete all ARRA-funded
          projects no later than February 17, 2011 and to continuously take actions to
          ensure projects are completed by February 17, 2011. Amtrak is allowed to
          request a waiver for projects that cannot be completed by February 17, 2011, but


                                             13
     must demonstrate that it has taken “extraordinary” measures to complete the
     project on time. We assessed the risks associated with nine major ARRA-funded
     projects and the measures being taken by Amtrak to manage those risks. These
     projects have a budget value totaling $277 million. A significant number of risk
     items were either directly or indirectly attributed to the February 17, 2011
     deadline including 1) the ability to acquire materials and equipment in time to
     complete the project before the grant deadline of February 17, 2011; 2)
     environmental concerns; and 3) schedule concerns. In many cases, the project
     managers were able to identify actions to mitigate risks. Specific mitigation
     actions are described in this report. However, Amtrak managers and executives
     are not in a position to mitigate the most significant risk, the grant requirement
     that Amtrak take “extraordinary” measures in order to justify a request for relief
     from the project deadline. This requirement may have the unintended
     consequence of encouraging Amtrak to take actions that increase the risk of
     waste and inefficiency or even to take shortcuts that could increase the risk that
     the project will not perform as well as expected and will not provide the benefits
     expected.

     Because the grant agreement is driving these “extraordinary” measures rather
     than the Law, we recommended that Amtrak apply to the FRA to amend the
     grant provisions. The grant provisions should ensure a balance between
     spending taxpayer funds in a timely manner and achieving project objectives,
     without actions that could increase the potential for waste or inefficiencies. We
     also recommended that Amtrak apply to the FRA for a grant waiver in instances
     where reasonable measures have failed to bring the project within the grant
     deadline. Amtrak agreed with the recommendations.

Ongoing Audits: (American Recovery and Reinvestment Act of 2009)

      Audit of Amtrak Engineering – Management of ARRA Program – Our
      objectives are to review (1) Amtrak‟s management and oversight of Jacob‟s
      projects and (2) the status of the Jacob‟s projects and obstacles to completing
      them by February 17, 2011.

      Survey of Police and Security Department Management of ARRA – Our
      objectives are to review (1) the Office of Police and Security management of
      the ARRA projects and (2) the status of implementation and obstacles to
      completing projects by February 17, 2011.

FY 2011 Potential Audit Topics: (American Recovery and Reinvestment Act of 2009)

   Our FY 2011 ARRA audit work will focus on the following areas:

      reviews of major contracts awarded with ARRA funds that will compare
      planned versus actual scope and funding as well as Amtrak‟s contract
      administration;


                                       14
a review of invoice processing and payment for projects implemented under a
program management agreement with a private contractor; and a review of
actual project completion and expenditure of ARRA funds.




                              15
                OIG Mission and Contact Information

Amtrak OIG Mission    The Amtrak OIG goals and perceptions of how best it can
                      affect Amtrak‟s mission, as spelled out in the Inspector
                      General Act of 1978, as amended:
                             Conduct and supervise independent and objective
                             audits, inspections, evaluations, and investigations
                             relating to Amtrak programs and operations;
                             Promote economy, effectiveness, and efficiency
                             within Amtrak and the OIG;
                             Prevent and detect fraud, waste, and abuse in
                             Amtrak programs and operations;
                             Review Amtrak security and safety policies and
                             programs;
                             Make recommendations regarding existing and
                             proposed legislation and regulations relating to
                             Amtrak's programs and operations; and
                             Keep Amtrak and Congress fully and currently
                             informed of problems in company programs and
                             operations.
Obtaining Copies of   To obtain copies of OIG documents at no cost, please visit
OIG Reports and       the Amtrak OIG web site at: www.amtrakoig.gov
Testimonies
To Report Fraud,      Help prevent fraud, waste, and abuse by reporting
Waste, and Abuse      suspicious or illegal activities to the OIG Hotline: (800)
                      468-5469
                      https://www.amtrakoig.gov/hotline

Congressional         E. Bret Coulson
Affairs               Assistant Inspector General for Management and Policy
                      Amtrak Office of Inspector General
                      10 G Street, N.E.
                      Drop Box: 3W-159
                      Washington, DC 20002
                      (202) 906-4134
                      coulsob@amtrak.com




                                   16
